WAIVER
Supreme Court of the United States
No. 20-321
Walter D. Barnette
(Petitioner)

v.

HBI, L.L.C., et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
IN

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
County of Sarpy, Nebraska

I am a member of the Bar of the Supreme Court of the United States.
C& I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed bye Bar member.
Signature.
Date: 09/18/2020
(Type or print) Name Andrea Gosnold-Parker
Mr.
. _ 0 Ms..

[23 Mrs.

❑ Miss ,

Firm. Sarpy County Attorney
Address 1210 Golden Gate. Drive, Suite 3147
City & State Papillion, NE

Zip 68046

Phone (402)593-2230 •
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF. THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Christina M. Martin
Pacific Legal Foundation
4440 PGA Blvd., Ste 307
Palm Beach Gardens, FL
33410

RECEIVED
SEP 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

